M-126720

Consumer Credit Card Agreement and Disclosure Statement
Effective Date 02/01/2021
1.0 : ISSUER. Your California Bank & Trust Card has been issued by Zions Bancorporation, N.A. dba California Bank &

Trust. Your Account is with Zions Bancorporation, N.A. (“Bank”) and will be administered by the Bank’s Bankcard Services
department. Your Credit Card, monthly, statement, and other associated materials will bear the California Bank & Trust
name.
1.1 : THIS CREDIT CARD AGREEMENT ("Agreement") is a legal contract between you and Zions Bancorporation, N.A.
that governs your credit card Account. It replaces all previous agreements, addendums, disclosures and amendments for
yourcredit card Account. This Consumer Credit Card Agreement includes the disclosures provided on the card carrier
containing the Card and any subsequent disclosures, all of which are fully incorporated herein by reference, and
constitutes your Agreement with us that covers your credit card Account. Review this Agreement carefully and keep it in
your records.
1.2 : ACCEPTING OR DECLINING THIS AGREEMENT. This Agreement is automatically accepted by you on the earlier
of (a) 15 days after you received your Card, or (b) immediately upon any use of your Card or Account. If you wish to
decline this Agreement, do not use your Card or Account, and cancel them within 15 days of receiving your Card by
calling 1-866-749-7460 or writing to the address on the carrier containing your Card.
1.3 : DEFINITIONS FOR THIS AGREEMENT. The definitions listed below will apply throughout, both in this Agreement
and in your monthly statement.
Bank: Means Zions Bancorporation, N.A., the issuer of your Card and holder of your Account.
We, us, and our: Refer to Bank.
You and your: Refer to the one or more persons who receive credit from us and are liable on the Account, including the
primary applicant and any co-applicant.
Account: Means your Visa credit card account, together with the associated account number, all that we grant under that
account, and all Card(s) issued and any Credit Card Checks made available under that account.
Card Agreement: Means this Agreement, together with your Card Application and the carrier containing your Card.
Card Application: Means your credit application for your Account.
Card: Means the credit card(s) and associated card number(s) that Bank issues as part of your Account.
Credit Limit: Means the maximum dollar amount of credit that Bank has authorized for your Account.
Outstanding Balance: Means the entire amount owing on your Account at any given time.
Cash Back: Is a cash-back rebate program of Bank for certain types of Accounts.
Credit Card Checks: Means checks that Bank may provide you to access your Account.
Margin: The applicable Margin for your credit card Account is determined by Bank. The Margin depends on Bank’s
determination of your creditworthiness, the type of credit card Account you have, and the type of transaction for which you
use your Card. The Margin applicable to your credit card Account may be changed by Bank and Bank will notify you of
such change.
1.4 : AMENDING THIS AGREEMENT. We may amend, add or delete (i.e., “change”) any term of this Agreement at
any time. We will notify you of any change, and any right to reject that change, as required by law. To reject a change,
you must inform us in the manner and time period specified in our notice. We will then close your Account and you will be
required to pay your Outstanding Balance as provided by applicable law. If a change requires your consent, we may
obtain that consent from you verbally, in writing or electronically. Whether or not consent is required, any further use of
your Account after the effective date of the change shall constitute your consent and acceptance. Unless a longer period
is specified by law, a reasonable period for any notice to you shall not exceed 25 days from being sent. Notices may be
printed on, or enclosed with, your monthly statement.
1.5 : CREDIT LIMIT. Your Account’s initial Credit Limit appears on the carrier containing your Card. Your updated Credit
Limit appears on each monthly statement. You must not use or allow others to use your Card or Account in a way that
causes your Outstanding Balance to exceed your Credit Limit. We are not obligated to enforce the Credit Limit, and you
are liable for the Outstanding Balance even if it exceeds your Credit Limit. We may increase or decrease your Credit Limit
at any time and will notify you of such change. You may request a change in your Credit Limit by contacting us.
2.0: THE CARD. You agree to sign the back of the Card before using it. The Card is the property of the Bank. We can
require you to surrender your Card to us or to any merchant or financial institution where you have presented the Card.
The Card is not valid after its printed expiration date, but we may suspend, cancel, replace or renew your Card at any
time. You may request additional Cards at no additional cost for family members or other persons that you authorize to
use your Account, but you remain responsible for all of their charges.

3.0 : USING YOUR CARD AND ACCOUNT. Subject to your Credit Limit and the other restrictions in this Agreement, card

network rules and the law, your Card and Account can be used for the following:
3.1 : Purchases. The Card may be used to purchase or lease goods or services wherever the Card is accepted.
3.2 : Cash Advances. The Card may be used to obtain cash advances from your Account (1) in person at the Bank or any
participating financial institution, (2) by electronic online cash advance to another account, or (3) ATMs in the Bank
network or other participating ATM networks (listed on the back of your Card). Transaction fees apply to cash advances.
Certain transaction limits apply, such as restricting the sum of all ATM and electronic online cash advances in your
Account to $500 (or $2000 limit for Signature accounts) or less on any calendar day. Some ATMs have other limits. Cash
Advances may not exceed 25% of Credit Limit (only applicable to AmaZing, Premier, Elite, Reserve, Agility Cash, Clarity,
and Vivid Rewards products). Based on risk, we may further limit cash advances in our sole discretion. We have no
obligation to you to enforce such transaction limits, and you owe all cash advances made. Using your Card to withdraw
cash from an ATM located outside of the United States will create a cash advance from and charge to your credit card
Account, even if you select withdrawal from a checking, savings or other type of account. ”Quasi cash transactions” such
as using your Card for money orders, travelers’ checks, foreign currency, lottery tickets or gambling chips are treated as
cash advances, not purchases.
3.3 : Balance Transfers. You can request a balance transfer to your Account. You may not use a balance transfer to pay
off other debts to us. You may only make a balance transfer to pay accounts in your name. Allow 4 to 6 weeks to process
your balance transfer request. During that time, you should continue making payments to those accounts. Transaction
Fees apply. You will not earn any rewards points or cash back rebates on a balance transfer.
3.4 : Credit Card Checks. We may provide Credit Card Checks to access your Account. Use of a Credit Card Check
creates a cash advance. Transaction Fees apply. Unused Credit Card Checks are the Bank’s property and must be
returned upon request. We can revoke your privilege to use Credit Card Checks at any time, without cause or notice. You
cannot stop payment on a Credit Card Check.
4.0: MONTHLY STATEMENTS. We will send you a monthly statement summarizing each transaction on your Account
during the preceding billing period. Your monthly statement will show the total amount you owed at the end of the billing
period, your minimum payment due, your payment due date (which is at least 25 days from the monthly statement closing
date), and other important information. We send your monthly statement to only one address, even if the Account has
multiple owners. See the “BILLING RIGHTS SUMMARY” section near the end of this Agreement for important information
(including the need to promptly review your monthly statement and report any errors).
5.0: HOW THE NEW BALANCE IS DETERMINED. The total amount you owe us at the end of the current billing period
appears as the “New Balance” on your monthly statement. The Outstanding Balance at the end of the previous billing
period is called the “Previous Balance”. The New Balance is determined by taking the Previous Balance and (1)
subtracting any payments and credits received by us during the current billing period and then (2) adding any purchases,
cash advances, balance transfers, interest charges, fees, and other adjustments.
6.0 : PAYMENTS. You must pay all amounts due on your Account according to the terms of this Agreement. Payments

must be drawn on U.S. dollars deposited in the United States. If we accept any other payment, you must pay all
conversion fees, bank collection fees and other expenses we may incur. (Such fees and expenses are treated as
purchases.) Do not send cash payments.
6.1 : Payment Due Date. Your payment due date is the same date each month. If the minimum payment is not received
by 5:00 p.m. on the due date, in the manner and at the location specified in the billing statement, there may be a delay in
posting your payment to your Account. Such delay may result in a late payment fee and additional interest charges.
6.2 : Minimum Payment Amount. If the New Balance is less than $30, the minimum payment is the full amount of the
New Balance. If the New Balance is $30 or more, the minimum payment is the sum of (1) any past due amount and (2)
the greater of: (a) $30 plus any late payment fees, or (b) 2.5% (1.75% for Agility Cash Credit Card, Clarity Credit Card,
and Vivid Rewards Credit Card) of the New Balance plus interest charges and any late payment fees. (For Visa
Signature Cards, in addition to the foregoing amounts, your minimum payment amount will include the full amount by
which your New Balance exceeds your credit limit.) For all cards, making only the minimum payment will increase
the amount of interest you pay and the time it takes to repay your balance.
6.3 : Application of Payments. Payments credited to your Account during a billing period will be applied first to unpaid
interest charges, then to any fees, then to the balance having the highest Annual Percentage Rate (APR), and then to
each successive balance bearing the next higher APR until the payment is exhausted. You must pay at least the
minimum payment amount on your statement each month, even if you paid more than the minimum payment in an
earlier month.
6.4 : Partial or Nonconforming Payments. You must not mark any payment with any kind of restrictive endorsement
(such as “paid in full” or “in settlement”). We can receive and credit your Account with the amount of any late payments,
partial payments or payments with restrictive endorsements without losing or waiving our right to receive timely payment
in full.
6.5 : Delay of Available Credit. We apply your payment to your Account on the business day we receive it. Based on risk,
however, we may delay when that payment increases your Account’s available credit.
6.6 : Prepayment. You may repay all or any portion of the Outstanding Balance at any time without penalty.

7.0: RATES AND FEES. Annual Percentage Rates, Daily Periodic Rates, and Fees and other disclosures are found on
the Table at the end of this agreement. The card carrier containing your Card also includes disclosures specific to your
Card Account. The terms of these disclosures are incorporated by reference into this Agreement. Review these
disclosures carefully and keep in your records.
8.0: DEFAULT. Your Account will be in default in any of the following circumstances: (a) your minimum payment is not
received at the proper address on or before the payment due date; (b) you fail to honor any other obligation under this
Agreement; (c) you die, file for bankruptcy, or become insolvent or generally unable to pay your debts; (d) you have
furnished false or misleading information on the Card Application; (e) you are in default under any other obligations you
may owe to us; or (f) we reasonably believe that you are unable or unwilling to honor all of your obligations under this
Agreement. If your Account is in default, we may declare the Outstanding Balance immediately due and payable, close
your Account, and recover all Cards and unused Credit Card Checks.
9.0: ATTORNEYS’ FEES; COLLECTION EXPENSES; VENUE IN UTAH. You agree to pay our reasonable collection
expenses, whether or not any court or arbitration proceedings are filed. Collection expenses include reasonable attorneys’
fees, the cost of Bank staff (including in house counsel), and out of pocket expenses (whether or not such expenses are
awardable as “court costs”). Unless prohibited by law, you agree that we may bring legal action against youin the State of
Utah, regardless of where you reside.
10.0 : INTEREST CHARGES. The following interest charges will apply whether before or after default, judgment, or the

closing of your Account.
10.1 : Periodic Interest Charges on Purchases, Balance Transfers and Cash Advances. We will not charge periodic
interest on purchases and balance transfers if you pay in full the total New Balance listed on the previous monthly
statement by the payment due date. Otherwise, we will charge periodic interest on each purchase and balance transfer
from the date of that purchase or balance transfer transaction. For every cash advance we charge interest from the date
of that transaction. There is no grace period during which a cash advance can be repaid without incurring an interest
charge.
10.2 : Periodic Interest Charge Calculation(s). The interest charged on purchase transactions and balance transfers is
calculated separately from the interest charged on cash advances. Those separately calculated interest amounts are then
combined to determine the total interest charged for the billing period. For each category of transactions, interest is
calculated as follows. (1) First, we determine the “average daily balance” by taking each day’s beginning balance, adding
any new transactions, and subtracting any payments or credits. We do not add interest incurred during the billing period.
The result is the “daily balance.” We then add all the daily balances for the billing period and divide by the number of days
in the billing period. The result is the “average daily balance” (also called the “balance subject to interest charge” on your
monthly statement). (2) Second, we multiply the average daily balance by the number of days in the billing period. That
number is then multiplied by the daily periodic rate (DPR) for that category of transactions. The resulting number is the
interest charged for that category of transactions. If you are charged interest, the minimum interest charge will be no less
than $1.
11.0 : ANNUAL PERCENTAGE RATE (“APR”) AND DAILY PERIODIC RATE (“DPR”). The APR and DPR for all

transactions are variable rates. The APR for a particular billing period is the sum of the Bank’s “Prime Rate” for that
billing period plus a “Margin.” The applicable Margin depends on the type of transaction and the type of credit card
Account. Daily periodic interest is calculated using the DPR. The DPR is 1/365th of the APR (or 1/366 in a leap year). The
APR and DPR on the Effective Date are disclosed on the card carrier. The actual APR in effect for each billing period, and
for each category of transactions, is disclosed in your monthly statement.
11.1 : “Prime Rate” and the “Index”. The Prime Rate is equal to, and varies with, an independent index (the “Index”).
The Index is the U.S. prime rate, as published by the Wall Street Journal. For any particular billing period, the Bank’s
Prime Rate is the published Index rate for the day that precedes by 6 business days the first calendar day of the calendar
month in which that billing period ends (If a range of rates is published for that date, the highest of the rates is used). If the
Index becomes unavailable, the Bank may designate a substitute Index in its sole discretion. Your APR and DPR, and the
amount of your minimum payment, will increase or decrease as the Index and Bank’s Prime Rate increase or decrease.
The resulting changes in your APR and DPR will take effect on the first day of your billing cycle the following month. You
acknowledge that the Bank’s Prime Rate does not mean the lowest rate at which Bank makes loans to any of its
customers, now or in the future.
11.2 : Military Lending Act (MLA). The Military Lending Act provides protections for members of the Armed Forces and
their dependents.
11.2.1 : Statement of MAPR (Military Annual Percentage Rate). Federal law provides important protections to members
of the Armed Forces and their dependents relating to extensions of consumer credit. In general, the cost of consumer
credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36
percent. This rate must include, as applicable to the credit transaction or account: The costs associated with credit
insurance premiums; fees for ancillary products sold in connection with the credit transaction; any application fee charged

(other than certain application fees for specified credit transactions or accounts); and any participation fee charged (other
than certain participation fees for a credit card account).
11.2.2 : Oral Disclosures. Before accepting this Agreement, in order to hear important disclosures and payment
information about this Agreement, you may contact us at 1-844-210-3601.
11.2.3 : Applicability of Dispute Resolution Provision. The Jury Waiver, Class Action Waiver, and Arbitration
Agreement in the Dispute Resolution Provision set forth in this Agreement do not apply to Covered Borrowers.
12.0 : ACCOUNT AND OTHER FEES. Fees applicable as of the effective date of this Agreement are provided on the

carrier containing your card.
12.1 : Cash Advance Fee. Each new cash advance will be assessed a one-time fee. This fee is fully earned when
assessed, and added to the balance of the transaction.
12.2 : Balance Transfer Fee. Each new balance transfer will be assessed a one-time fee. This fee is added to the
balance of the transaction.
12.3 : Late Payment Fee. If your minimum payment is not received at the proper address by the payment due date, we
charge a late payment fee.
12.4 : Returned Payment Fee. If any check or other payment on your Account is dishonored or must be returned because
it cannot be processed, we charge a returned payment Fee. This fee is charged to your Account as a purchase item.
12.5 : Annual Account Fee. If your Account has an Annual Account Fee, generally it will be billed at account opening and
every twelve (12) months thereafter. The amount of the Annual Account Fee, if there is one on your Account, is listed in
the Table that appears on the carrier containing your Card.
12.6 : International Transaction Fee. Each international transaction will be assessed a fee of the U.S. dollar amount of
the transaction. This fee applies whether your transaction is originally made in U.S. dollars or converted to U.S. dollars
from a foreign currency. If you incur a charge in a foreign currency, the charge will be converted into U.S. dollars amount
by Visa International using its procedures in effect at the time. Under current procedures, the foreign currency conversion
rate is either a wholesale market rate or a government mandated rate in effect one day prior to the date the transaction is
processed by Visa. The currency conversion rate in effect on the processing date may differ from the rate in effect on the
transaction date or the posting date. This fee is added to the balance of the transaction.
12.7 : Research Fee. If you request research on your Account (except for alleged billing errors by us), we may charge you
a research fee up to $25 per hour, plus $5 per photocopy. This fee is charged to your Account as a purchase item.
12.8 : Expedited Card Delivery Fee and Emergency Card Fee. We may charge a fee if you request “expedited delivery”
of a Card that requires an outside delivery service provider. We may also charge a fee if you request to personally obtain
an “emergency Card” at our Bankcard Center that requires special card production. The current amounts of these fees will
be disclosed at the time of your requests and before you agree to incur the charges. These fees are charged to your
Account as a purchase.
13.0 : Card Benefits.
13.1 : Priority Pass Select – for Reserve Cards Only. Reserve cardholders have access to 5 (five) free airport lounge

visits per membership year. Each member visit and each accompanying guest(s) visit applies against the free visit
allowance. After the free visits have been used, the member’s Reserve credit card will be charged a lounge visit fee of
$27 per person per visit for the member and each guest. Lounge benefits, services, and facilities differ by location and
may only be available at an additional charge. For more information, refer to the Priority Pass Select Agreement.
13.2 : Annual Travel Credit – for Reserve and Elite Cards Only. A statement credit will automatically be applied to your
account when your card is used for purchases in certain travel categories, up to an annual maximum of $250 for Reserve
cards or $100 for Elite cards. Annual Travel Credits are refreshed once yearly, the day after the anniversary of your
account open date. Qualifying purchases are those billed in the following merchant categories: Airlines, Rental Cars,
Hotels, Cruise Lines, Travel Agencies, Airport Terminals, Global Entry, TSA Precheck, and Gogo Inflight Wi-Fi.
Identification of qualified purchases is subject to merchants’ billing. Statement credit(s) will post to your account within 3
days of the settled purchase and will appear on your monthly credit card billing statement within 1-2 billing cycles. With
questions about your Annual Travel Credit, or when your next Annual Travel Credit will become available, call the number
on the back of your card. To qualify, purchases must: 1) be completed using the full Visa 16-digit card number referenced
during the Program period; 2) post to the card account referenced during the Program period; 3) be identified as a
qualifying purchase based on the information available on Visa’s proprietary network (VisaNet); The merchant must
submit the purchase transaction under the appropriate merchant code, industry code, or required service or product
identifier for the purchase to the identified as a qualifying travel purchase. Your card must remain in good standing in
order to receive the statement credit. Please allow 1-2 billing cycles to receive your statement credit. Cardmembers are
responsible for payment of all charges until the statement credit posts to the account. Visa and Zions Bancorporation,
N.A. reserve the right to modify or cancel this offer at any time and without notice.
14.0 : ADDITIONAL TERMS AND CONDITIONS APPLICABLE TO VISA SIGNATURE CARD:
14.1 : Credit Limit: The Credit Limit on your Card Account is disclosed on each monthly statement (your initial Credit Limit

appears on the carrier containing the Card). Bank may decline authorization for any use of your Card or Card Account that
would at any time cause your Outstanding Balance to exceed your Credit Limit. You are liable for the Outstanding

Balance even if it exceeds your Credit Limit. The Bank may decrease your Credit Limit at any time and will notify you of
such change. In addition, you may request a change in your Credit Limit by writing to the address shown on your monthly
statement or by calling 1-800-494-1698.
14.2: Transfers: Not available on all Visa Signature cards, for cards with transfer capability the Card may be used at the
ATMs described above to make electronic transfers to or from your checking account, savings account or other consumer
asset account you may have at the Bank (subject to the Bank's rules, regulations and agreements governing such
accounts, which you should have already received and which are incorporated herein). You may request copies of these
materials by calling 1-888-758-5349. Transfers from your Card Account to your checking account, savings account or
other consumer asset account will be treated as a cash advance subject to a Cash Advance Transaction Fee.
14.3: No Pre-Set Spending Limit: This Section 14.3 applies ONLY if you have a Visa Signature credit card OTHER
THAN the AmaZing Rewards® Signature, AmaZing Cash® Signature, Agility Cash Signature, Vivid Rewards
Signature, Premier, Elite, or Reserve credit card. There is no pre-set spending limiton your card; no pre-set spending
limit does not mean unlimited spending. You agree to pay in full each month any amount that exceeds your Credit Limit.
Each transaction that causes your new balance to exceed your Credit Limit will beevaluated for approval based on
factors such as card fraud, account history, revolving balances, payment history, credit record, prior cash advances, and
safety and soundness considerations.
15.0: SECURITY INTEREST FOR SECURED ACCOUNTS. If you have a Launch Secured Account (a credit line secured
by funds in a savings or CD account at Bank), you have given the Bank a security interest in a savings account at the
Bank to secure payment of your Account.
16.0: JOINT ACCOUNT. If your Account is in the name of more than one person, each such person is jointly and
individually liable for the full balance of all amounts due on your Account. Unless otherwise required by law, we may send
all monthly statements and other notices to any one of you. Such monthly statements and notices shall be deemed
received by each and all of you.
17.0 : INTERPRETATION; EFFECT.
17.1 : Duration; Survival. Your right to use the Card or make charges to your Account terminates when your Account is

closed. All of our rights and your obligations remain in effect until your Account is closed and your Outstanding Balance is
paid in full.
17.2 : Headings. The headings used in this Agreement are for convenience only and do not describe the entire scope or
intention of any portion of this Agreement.
17.3 : Integrated Agreement. This Agreement is the final written statement of your contract with us and cannot be
contradicted with evidence of any alleged oral agreement.
17.4 : Severability. If any part of this Agreement is unenforceable in any jurisdiction, the rest of this Agreement will remain
enforceable in that jurisdiction, and this entire Agreement shall remain enforceable in all other jurisdictions.
17.5 : Delay in Enforcement. Any delay by us in enforcing our rights or your obligations under this Agreement shall not be
deemed to release, waive, impair or discharge those rights or obligations.
17.6.: Assignment. You may not assign or transfer any portion of this Agreement or your Account without our prior
written permission. We may assign or transfer this Agreement, your Account or any portion thereof without notice to you.
This Agreement shall be binding upon the parties’ heirs, representatives, successors, and assigns.
17.7: GOVERNING LAW. THIS AGREEMENT AND YOUR ACCOUNT SHALL BE GOVERNED BY AND CONSTRUED
IN ACCORDANCE WITH THE LAWS OF THE UNITED STATES AND THE STATE OF UTAH, REGARDLESS OF
PRINCIPLES ON THE CONFLICT OF LAWS OR WHERE YOU RESIDE OR USE YOUR CARD.
18.0: DISCLOSURES OF INFORMATION. You consent to the release of personal data about you by the Bank to Visa
U.S.A., its Members, or their respective contractors for the purpose of providing the services described in this Agreement,
or emergency cash and emergency card replacement services.
19.0: NO ILLEGAL USE; OFAC SANCTIONS; INTERNET GAMBLING PROHIBITED. You must not use your Account,
Card or Credit Card Checks (a) for any illegal purpose; (b) for any transaction or in any manner that violates the law; (c) to
conduct transactions in any country or territory, or with any individual or entity, that is subject to economic sanctions
administered and enforced by the U.S. Department of the Treasury's Office of Foreign Assets Control (OFAC); or (d) to
gamble on the Internet. Display of a Visa logo or other payment system logo by any person (e.g., an online merchant), or
acceptance of a transaction, does not mean that the transaction is lawful in all or any jurisdictions governing you, your
Account or the transaction. We have the right (but no obligation to you) to decline or block any transactions that we
believe may be prohibited under this section. We may also block use of your Card in countries or territories subject to
OFAC sanctions. You remain liable for, and you must indemnify us for, any transactions made in violation of this section.
20.0: AGREEMENT TO PAY. You agree to timely pay your Outstanding Balance, regardless of whether the charges were
incurred for personal, family, household or business purposes. Your liability includes all charges made by all persons you
permitted or gave express, implied or apparent authority to use your Account, Card, or Credit Card Check even if you
were unaware of the charges or they caused you to exceed your Credit Limit.

21.0 : LIABILITY FOR UNAUTHORIZED USE. If your Card, Account number or Credit Card Checks are lost or stolen, or

if you think that someone used or may use them without permission, you agree to notify the Bank immediately by calling
1-866-749-7460. You may need to provide the Bank with certain information in writing to help the Bank determine what
happened. You are not liable for loss, theft, or unauthorized use of your Card, Card Account, or Credit Card Check if you
notify the Bank of any fraudulent transactions.
21.1 : Liability for Unauthorized Transactions: You are not liable for unauthorized use of your card for transactions if

you notify the Bank within two business days. In any case, your liability will not exceed $50.
22.0: REFUSAL TO HONOR TRANSACTIONS. We are not responsible or liable for any claim arising from or related to:
(a) the refusal or delay of any financial institution, merchant, or other person to honor or return your Card, Account or
Credit Card Check; (b) any goods or services obtained with your Card Account or Credit Card Check (except to the extent
provided in “Billing Rights Summary” notice near the end of this Agreement); (c) any unsuccessful attempt to obtain prior
credit authorization for any transaction when the authorization system is not working; or (d) any unsuccessful attempt to
use the Card in an ATM when the ATM or ATM network is not working or is temporarily closed or out of order.
23.0 : FINANCIAL AND CREDIT INFORMATION.
23.1 : Financial Statements. If we ask, you agree to furnish a current financial statement or to update the Card

Application.
23.2 : Credit Reports and Negative Credit Reporting. You hereby authorize us to make credit inquiries or investigations
about you, and to disclose to others credit information about your Account and your performance under this Agreement.
We may ask credit bureaus for reports of your credit history. At your request, we will tell you whether or not we have
requested such reports, and the names and addresses of the credit bureaus furnishing the reports. We may act through
our agents, who may act in our name or their own names.
23.3 : Negative Credit Reporting. You are hereby notified and agree that we may report information about your
Account to credit bureaus. Late payments, missed payments, or other defaults on your account may be reflected
in your credit report. We may report through our agents (including but not limited to Zions Management Services
Company) who may act in our name or their own names. Please notify us if we report any inaccurate information about
your Account(s) to a credit bureau. Your written notice describing the specific inaccuracy should be sent to us at the
following address: California Bank & Trust, Bankcard Services, P.O. Box 25787, Salt Lake City, UT 84125.
24.0: CHANGE OF NAME OR ADDRESS. You agree to promptly notify us in writing if you change your name, home
address, or mailing address. Until you notify us of updated information, we can send statements, notices and other
communications to the name and address in our records, and they will be deemed effectively delivered for all purposes. If
your mailing address appears to no longer be valid (e.g., mail is returned undelivered), you agree that we can suspend
mailing your statements, notices and other communications until a valid address is received from you.
25.0: CLOSING YOUR ACCOUNT. You may close your Account at any time by notifying us in writing. We may close your
Account at any time without cause and without notice. When your Account is closed (whether by you or us), your right to
use the Account, Card and Credit Card Checks is automatically revoked. When your Account is closed, you must contact
everyone authorized to charge transactions to your Account (e.g., internet service providers, insurance companies, etc.)
to cancel future transactions. Such transactions may continue to be charged to your Account until you change the billing,
and you will be liable for those charges. If we believe that you have authorized a transaction or are attempting to use your
Account after you have requested to close your Account, we may (but are not required) allow the transaction to be
charged to your Account and you will be liable for the charges.
26.0: VISA ACCOUNT UPDATER. Card accounts are automatically enrolled in the Visa Account Updater (VAU) feature
required by Visa. This feature enables the electronic exchange of account information between Visa and participating
merchants to support payment continuity with credential-on-file merchants. Visa will securely provide updated credit card
information when your Card is re-issued for any reason or is closed. Updates are not guaranteed before the next billing
cycle; the Bank is not responsible for late, missed, or recurring payments. To opt-out of the Visa Account Updater feature
for your card account, please contact the Bank by calling the number on the back of your card.
27.0 : DISPUTE RESOLUTION PROVISION. This Dispute Resolution Provision contains a jury waiver and a judicial

reference agreement. READ IT CAREFULLY. No portion of this Dispute Resolution Provision shall be interpreted or
applied in a manner prohibited by governing law, but all other portions shall remain in effect. The jury waiver, class
action waiver, and arbitration agreement in this Dispute Resolution provision do not apply to you if, as of the
date of this agreement, you are a member of the Armed Forces or a dependent of such member entitled to
protection under the Federal Military Lending Act.
27.1 : GENERAL PROVISIONS GOVERNING ALL DISPUTES.
27.1.1 : PRIOR DISPUTE RESOLUTION AGREEMENTS SUPERSEDED. This Dispute Resolution Provision shall

supersede and replace any prior “Jury Waiver,” “Judicial Reference,” “Class Action Waiver,” “Arbitration,”

“Dispute Resolution,” or similar alternative dispute agreement or provision between or among the parties
relating to this Agreement or the subject matter hereof.
27.1.2 : “DISPUTE” DEFINED. As used herein, the word “Dispute” includes, without limitation, any claim by either party

against the other party related to this Agreement, your Card or Account. Disputes include without limitation class
action claims brought by either party as a class representative on behalf of others and claims by a class
representative on either party’s behalf as a class member and any action, suit, case or claim brought by either
party as a private attorney general. Disputes also include without limitation matters involving the validity, enforceability,
meaning or scope of this dispute resolution provision and disputes based on or arising from an alleged tort or matters
involving the employees, officers, agents, affiliates or assigns of a party hereto.
If a third party is a party to a Dispute (such as a credit reporting agency, merchant accepting a credit card, junior
lienholder or title company), each party hereto agrees to consent to including that third party in any arbitration or judicial
reference proceeding for resolving the Dispute with that third party.
27.1.3 : JURY WAIVER; CLASS ACTION WAIVER. Each party waives its, his or her respective rights to a trial

before a jury in connection with any Dispute. All Disputes shall be decided by a judge sitting without a jury, unless
resolved in a judicial reference proceeding pursuant to Section 27.1.5. If permitted by applicable law, each party also
waives the right to litigate in court or a reference proceeding any Dispute as a class action, either as a member of
a class or as a representative, or to act as a private attorney general.
27.1.4 : SURVIVAL. This Dispute Resolution Provision shall survive any termination, amendment or expiration of this

Agreement or of any other relationship between the parties.
27.1.5 : JUDICIAL REFERENCE. To the extent a jury waiver or class action waiver is not permitted by applicable law and

a Dispute arises between the parties hereto, each party shall have the right, but not the obligation, to require that it be
resolved by judicial reference in accordance with California Code of Civil Procedure, Sections 638, et seq. BY
AGREEING TO RESOLVE DISPUTES BY JUDICIAL REFERENCE, EACH PARTY IS GIVING UP ANY RIGHT THAT
PARTY MAY HAVE TO A JURY TRIAL. The referee shall be a retired judge, agreed upon by the parties, from either the
American Arbitration Association (AAA) or Judicial Arbitration and Mediation Service, Inc. (JAMS). If the parties cannot
agree on the referee, the party who initially selected the reference procedure shall request a panel of ten retired judges
from either AAA or JAMS, and the court shall select the referee from that panel. If AAA and JAMS are unavailable to
provide this service, the court may select a referee by such other procedures as are used by that court. The referee shall
be appointed to sit with all of the powers provided by law, including the power to hear and determine any or all of the
issues in the proceeding, whether of fact or of law, and to report a statement of decision. The parties agree that time is of
the essence in conducting the judicial reference proceeding set forth herein. Except as otherwise provided in this
paragraph, the costs of the judicial reference proceeding, including the fee for the court reporter, shall be borne equally by
the parties as the costs are incurred, unless otherwise awarded by the referee. If Bank commences a judicial reference
proceeding regarding a consumer Dispute, Bank shall pay all referee fees, regardless of whether or not the consumer is
the prevailing party in such proceeding, unless such Dispute involves a claim for damages by a consumer and is found by
the referee to be frivolous. For purposes of this paragraph, “consumer Dispute” shall mean a Dispute involving credit or
services provided by Lender or Bank, primarily for personal, family or household purposes, in which the claim for
damages is less than $75,000. The referee shall hear all pre-trial and post-trial matters (including without limitation
requests for equitable relief), prepare a statement of decision with written findings of fact and conclusions of law and
apportion costs as appropriate. The referee shall be empowered to enter equitable relief as well as legal relief, provide all
temporary or provisional remedies, enter equitable orders that are binding on the parties and rule on any motion that
would be authorized in a trial, including without limitation motions for summary adjudication. Judgment upon the award
shall be entered in the court in which such proceeding was commenced and all parties shall have full rights of appeal.
This provision will not be deemed to limit or constrain Bank’s right of offset, to obtain provisional or ancillary remedies, to
interplead funds in the event of a dispute, to exercise any security interest or lien Bank or Lender may hold in property, or
to comply with legal process involving accounts or other property held by Bank or Lender.
27.1.6 : RELIANCE. Each party (i) certifies that no one has represented to such party that the other party would not seek

to enforce a jury waiver, class action waiver or judicial reference provision in the event of suit, and (ii) acknowledges that it
and the other party have been induced to enter into this Agreement by, among other things, material reliance upon the
mutual waivers, agreements and certifications in this Dispute Resolution Provision.
28.0 : BILLING RIGHTS SUMMARY. This notice contains important information about your rights and the Bank's

responsibilities under the Fair Credit Billing Act.
28.1 : Notify Us in Case of Errors or Questions About Your Bill. If you think your bills is wrong, or if you need more
information about a transaction on your bill, write to us in a separate letter at the address indicated in the Billing Rights
Summary on your Statement or the address below. We must hear from you no later than 60 days after we sent you the
first bill on which the error or problem appeared. You can telephone us, but doing so will not preserve your rights and we
will not be required to investigate any potential errors. In your letter, include the following information:
• Your name and account number.

•
•

The date and dollar amount of the suspected error.
Describe the error, and explain if you can, why you believe there is an error. If you need more information,
describe the item you are not sure about.
If you have authorized us to pay your Account automatically from your savings or checking account or you have
authorized an automatic payment on your Account, you can stop the payment on any amount you think is wrong. To stop
the payment your letter must reach us three business days before the automatic payment is scheduled to occur.
28.2 : Your Rights and Our Responsibilities After We Receive Your Written Notice. We must acknowledge your letter
within 30 days, unless we corrected the error by then. Within 90 days, we must either correct the error or explain why we
believe the bill was correct.
After we receive your letter, we cannot try to collect any amount you question, or report you as delinquent. We can
continue to bill you for the amount you question, including interest charges, and we can apply any unpaid amount against
your Credit Limit. You do not have to pay any questioned amount while we are investigating, but you are still obligated to
pay the parts of your bill that are not in question.
If we find that we made a mistake on your bill, you will not have to pay the amount in question or any interest charges
related to any questioned amount. If we didn’t make a mistake, you may have to pay interest charges, and you will have to
make any missed payments on the questioned amount. In either case, we will send you a statement of the amount you
owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may report you as delinquent. However, if our explanation does not
satisfy you and you write to us within ten (10) days telling us that you still refuse to pay, we must tell anyone we report you
to that you have a question about your bill. And, we must tell you the name of anyone we reported you to. We must tell
anyone we report you to that the matter has been settled between us when it finally is. If we don’t follow these rules, we
can’t collect the first $50 of the questioned amount, even if your bill was correct.
28.3 : Your Rights If You Are Dissatisfied With Your Credit Card Purchases. If you are dissatisfied with the goods or
services that you have purchased with your Card and you have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the remaining amount due on the purchase. To use this right, all of the
following must be true:
(1) The purchase must have been made in your home state or within 100 miles of your current mailing address, and
the purchase must have been more than $50. (Note: Neither of these are necessary if your purchase was based on
an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
(2) You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with
a check that access your credit card account do not qualify.
(3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
California Bank & Trust
Bankcard Services
P.O. Box 25787
Salt Lake City, UT 84125-0787
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as
delinquent.
Revised 02/01/2021

M-126720

A division of Zions Bancorporation, N.A. Member FDIC

ADDENDUM 1: Disclosure Statement for California Bank & Trust
This Addendum applies to ZB, N.A. dba California Bank & Trust credit cards: Visa Signature, Visa Platinum, Visa
Classic, and Secured Visa Credit Cards. These products are no longer offered.
INTEREST RATES AND INTEREST CHARGES
Purchases Annual Percentage Rate
(APR)

4.00% + Prime Rate to 9.00% + Prime Rate
based on the card type and your creditworthiness.
These APRs will vary with the market based on the Prime Rate.

APR for Balance Transfers

4.00% + Prime Rate to 9.00% + Prime Rate based on the card type and your
creditworthiness.
These APRs will vary with the market based on the Prime Rate.

APR for Cash Advances

15.99% + Prime Rate
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases and balance transfers if you pay your
entire balance due by the due date each month. We will begin charging interest
on cash advances on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the Consumer Financial Protection Bureau website at
http://www.consumerfinance.gov/learnmore.

FEES
Annual Account Fee

Visa Signature card: $75
Visa Platinum and Visa Classic cards: None

Transaction Fees:
▪

Cash Advance

3% of the amount of each transaction, but not less than $5.

▪

Balance Transfer

2% of each transfer amount but not less than $5 or more than $50.

▪

International Transaction

3% of the U.S dollar amount of each transaction, whether originally made in
U.S. dollars or converted from a foreign currency.

Penalty Fees:
▪

Late Payment

Up to $10

▪

Returned Payment

Up to $25

How we will calculate your balance: We use a method called “average daily balance (including new purchases)”. See your account agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.

ADDENDUM 2 – Disclosure Statement for California Bank & Trust
This Addendum applies to the following Zions Bancorporation, N.A. dba California Bank & Trust credit cards:
AmaZing Rate®, AmaZing Cash®, AmaZing Cash® Signature, AmaZing Rewards®, AmaZing Rewards® Signature,
AmaZing Launch® (this product is no longer offered), and AmaZing Launch® Secured Credit Cards.
INTEREST RATES AND INTEREST CHARGES
Purchases Annual
Percentage Rate (APR)

Prime Rate + 6.49% to Prime Rate + 12.49% for
AmaZing Rate Cards

Prime Rate + 7.99% to Prime Rate + 10.99% for
AmaZing Rewards Visa Signature and AmaZing Cash Visa Signature Cards

Prime Rate + 8.99% to Prime Rate + 14.99% for
AmaZing Rewards Visa and AmaZing Cash Visa

Prime Rate + 15.99% for AmaZing Launch Secured Visa
Prime Rate + 12.99% to Prime Rate + 15.99% for
AmaZing Launch Visa (this product is no longer offered)
These APRs will vary with the market based on the Prime Rate.
APR for Balance Transfers

Prime Rate + 6.49% to Prime Rate + 12.49% for AmaZing Rate Cards
Prime Rate + 7.99% to Prime Rate + 10.99% for AmaZing Rewards Visa Signature
and AmaZing Cash Visa Signature Cards
Prime Rate + 8.99% to Prime Rate + 14.99% for AmaZing Rewards Visa and
AmaZing Cash Visa
Prime Rate + 15.99% for AmaZing Launch Secured Visa
Prime Rate + 12.99% to Prime Rate + 15.99% for AmaZing Launch Visa (this
product is no longer offered)
Prime Rate + 4.00% APR on balances transferred from your existing California Bank
& Trust Credit Card Account to an AmaZing product.
These APRs will vary with the market based on the Prime Rate.

APR for Cash Advances

Prime Rate + 15.99%
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge
you any interest on purchases and balance transfers if you pay your entire balance due
by the due date each month. We will begin charging interest on cash advances on the
transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the Consumer Financial Protection Bureau website at
http://www.consumerfinance.gov/learnmore.

FEES
Annual Account Fee

$25 for AmaZing Launch and AmaZing Launch Secured Card.
None for all other card types named in this Table.

Transaction Fees:
▪

Cash Advance

3% of the amount of each transaction, but not less than $10.

▪

Balance Transfer

3% of the amount of each transaction, but not less than $10.

▪

International
Transaction

3% of the U.S dollar amount of each transaction, whether originally made in U.S.
dollars or converted from a foreign currency.

Penalty Fees:
▪

Late Payment

Up to $10 if not paid by the 10th day following payment due date.

▪

Returned Payment

Up to $25

How we will calculate your balance: We use a method called “average daily balance (including new purchases)”. See your account agreement for
more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.

ADDENDUM 3 – Disclosure Statement for California Bank & Trust
This Addendum applies to the following Zions Bancorporation, N.A. dba California Bank & Trust credit cards:
Premier, Elite, and Reserve.
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

Prime Rate + 10.99% to Prime Rate + 18.99% for
Premier and Elite Cards

Prime Rate + 10.99% to Prime Rate + 20.99% for
Reserve Cards
These APRs will vary with the market based on the Prime Rate.
APR for Balance Transfers

For the following intro APR to apply, balance transfer request(s) must be received
within 60 days of your Card Account opening date:
0.00 % intro APR for 6 months on balance(s) transferred within 60 days from a nonZions Bancorporation, N.A. account. After that, your balance transfer APR will be:
Prime Rate + 10.99% to Prime Rate + 20.99%, depending on the APR
applicable to your Account.
These APRs will vary with the market based on the Prime Rate.
•

APR for Cash Advances
Penalty APR and When It
Applies
Paying Interest

Minimum Interest Charge
For Credit Card Tips from
the Consumer Financial
Protection Bureau

7.00% Fixed on balances transferred from your existing Zions
Bancorporation, N.A. Credit Card Account to a new Premium product.

Prime Rate + 19.99% to Prime Rate + 20.99%
This APR will vary with the market based on the Prime Rate.
None
Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases and balance transfers if you pay your entire
balance due by the due date each month. We will begin charging interest on cash
advances on the transaction date.
If you are charged interest, the charge will be no less than $1
To learn more about factors to consider when applying for or using a credit
card, visit the Consumer Financial Protection Bureau website at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Account Fee

•
•
•

Premier: $95 (waived first year)
Elite: $195
Reserve: $450; $50 per year for each additional person on account

Transaction Fees:
▪

Balance Transfer

3% of the amount of each transaction, but not less than $5.

▪

Cash Advance

5% of the amount of each transaction, but not less than $10.

▪

International Transaction

None

Penalty Fees:
▪

Late Payment

Up to $35

▪

Returned Payment

Up to $35

Priority Pass Select Fees:
(for Reserve cards only)
▪

Membership Fee

$0

▪

Lounge Access Fee

$27 per person per visit after your five (5) complimentary visits per 12-month Priority
Pass Select Membership period.

How we will calculate your balance: We use a method called “average daily balance (including new purchases)”. See the card agreement for more
details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in the card agreement.

ADDENDUM 4 – Disclosure Statement for California Bank & Trust
This Addendum applies to the following Zions Bancorporation, N.A. dba California Bank & Trust credit cards: Vivid
Rewards, Agility Cash, and Clarity credit cards.

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

0.00% intro APR for 6 months from date of Card Account opening. After that,
your APR will be:

Prime Rate + 9.00% to Prime Rate + 21.00% for Vivid
Rewards and Agility Cash Cards

Prime Rate + 6.50% to Prime Rate + 15.50% for Clarity
APR for Balance Transfers

Cards
These APRs will vary with the market based on the Prime Rate.
For the following intro APR to apply, balance transfer request(s) must be received
within 60 days of your Card Account opening date:
0.00% intro APR: for 12 months on Vivid Rewards and Agility Cash; for 15 months on
Clarity on balance(s) transferred from a non-Zions Bancorporation, N.A. account.
After that, your balance transfer APR will be:
Prime Rate + 6.50% to Prime Rate + 21.00%, depending on the APR
applicable to your Account.
These APRs will vary with the market based on the Prime Rate.
•

APR for Cash Advances
Penalty APR and When It
Applies
Paying Interest

Minimum Interest Charge
For Credit Card Tips from
the Consumer Financial
Protection Bureau

7.00% Fixed on balances transferred from your existing Zions
Bancorporation, N.A. Credit Card Account to a new Premium product.

Prime Rate + 18.00% to Prime Rate + 22.00%
This APR will vary with the market based on the Prime Rate.
None
Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases and balance transfers if you pay your entire
balance due by the due date each month. We will begin charging interest on cash
advances on the transaction date.
If you are charged interest, the charge will be no less than $1
To learn more about factors to consider when applying for or using a credit
card, visit the Consumer Financial Protection Bureau website at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Account Fee
Transaction Fees:

None

▪

Balance Transfer

3% of the amount of each transaction, but not less than $10

▪

Cash Advance

4% of the amount of each transaction, but not less than $10 for Vivid and Agility
Cards
3% of the amount of each transaction, but not less than $10 for Clarity Cards

▪

International Transaction

None

Penalty Fees:
▪

Late Payment

Up to $35 for Vivid and Agility Cards; None for Clarity Cards

▪

Returned Payment

Up to $30 for Vivid and Agility Cards; None for Clarity Cards

How we will calculate your balance: We use a method called “average daily balance (including new purchases)”. See the card agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in the card agreement.

